<html>
<title> - NOMINATION OF R. DAVID PAULISON</title>
<body><pre>[Senate Hearing 109-673]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-673
 
                    NOMINATION OF R. DAVID PAULISON

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                 ON THE

  NOMINATION OF R. DAVID PAULISON, TO BE UNDER SECRETARY FOR FEDERAL 
       EMERGENCY MANAGEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY


                               __________

                              MAY 24, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
28-249                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Jennifer A. Hemingway, Professional Staff Member
             Michael L. Alexander, Minority Staff Director
         Adam R. Sedgewick, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Voinovich............................................     6
    Senator Akaka................................................     7
    Senator Dayton...............................................     8
    Senator Carper...............................................    19
Prepared statement:
    Senator Levin................................................    39

                               WITNESSES
                        Wednesday, May 24, 2006

Hon. E. Clay Shaw, Jr., a Representative in Congress from the 
  State of Florida...............................................     5
R. David Paulison, to be Under Secretary for Federal Emergency 
  Management Agency, U.S. Department of Homeland Security:
    Testimony....................................................     9
    Prepared statement...........................................    40
    Biographical and professional information....................    46
    Responses to pre-hearing questions...........................    50
    Letter from U.S. Office of Government Ethics.................   122
    Responses to post-hearing questions..........................   123
    Responses to additional questions............................   145


                    NOMINATION OF R. DAVID PAULISON

                              ----------                              


                        WEDNESDAY, MAY 24, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:19 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Lieberman, Akaka, 
Carper, and Dayton.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today the Committee will consider the nomination of David 
Paulison to be the Under Secretary for Federal Emergency 
Management at the Department of Homeland Security. Put more 
simply, he has been nominated to be the Director of FEMA.
    It would be an understatement to say that Members of this 
Committee are familiar with FEMA. We have just completed an 
exhaustive 7-month investigation into what went wrong in the 
response to Hurricane Katrina. As a result, we are all too 
familiar with the profound problems that exist within the 
Nation's emergency management structure and, in particular, 
within FEMA.
    As the title of our Katrina Report states, 4 years after 
the terrorist attacks, America was still a Nation unprepared 
when that powerful storm struck. With the official start of the 
2006 hurricane season now less than a week away, we must 
ascertain whether we are any better prepared today as a result 
of the cruel lessons Hurricane Katrina taught us.
    The recent floods in the southern part of my State and in 
New Hampshire and Massachusetts remind us that disaster can 
strike any time and anywhere. The terrible human suffering and 
the physical devastation caused by Hurricane Katrina were truly 
horrifying. But, from natural disasters to terrorist attacks, 
we can easily construct scenarios that would be even worse. 
FEMA plays a central role in preparing for, responding to, and 
recovering from such catastrophes.
    The catalog of the 185 findings in our Committee's report 
can be seen through the lenses of four over-arching failures: 
First, the lack of attention to long-term warnings and failures 
to prepare for a long predicted catastrophe.
    Second, insufficient actions and poor decisions prior to 
landfall and in the immediate aftermath.
    Third, the failure of systems that support response 
efforts, including abysmal situational awareness.
    And fourth, the failures of officials at all levels of 
government to provide effective leadership.
    As our investigation made painfully clear, FEMA, under its 
then-Director Michael Brown, was at the center of each of these 
failures. Mr. Brown bears much of the responsibility for the 
haphazard and inadequate preparation, response, and relief 
effort. It matters greatly who leads FEMA. The Agency must have 
a strong, effective, and experienced leader, which is why we 
have convened today.
    But the record of our investigation also makes clear that 
the problems at FEMA go beyond matters of leadership, judgment, 
and equipment in one particular disaster. FEMA lacks the 
stature, the protection, the resources, the connections with 
State and local officials and first responders, and the direct 
communication with the President that are essential in 
responding effectively to a catastrophe.
    It is clear that the problems at FEMA were evident long 
before Katrina. Our investigation of FEMA's disaster relief 
programs following the 2004 Florida hurricanes revealed 
alarming waste, fraud, and abuse. Yet, those alarms were not 
heeded before Katrina struck.
    FEMA's problems are bone deep, and at the surface level, 
its credibility is shattered. That is why one of our report's 
major recommendations calls for elevating and strengthening 
FEMA by giving it key preparedness and protection assets. We 
must transform this agency into a new, all-hazards authority 
within the Department of Homeland Security.
    This more capable and more regionally focused agency would 
be built upon the foundation of FEMA. More precisely, it will 
be built upon the foundation of FEMA's skilled, dedicated, and 
professional workforce.
    Our nominee brings extensive credentials and leadership 
experience to the great challenges ahead. David Paulison was 
appointed Acting Director of FEMA just 2 weeks after Katrina 
hit, following the resignation of Michael Brown. He stepped 
forward to take command under extraordinarily difficult 
circumstances.
    Prior to his appointment as the Acting Director of FEMA, he 
was confirmed by the Senate as the U.S. Fire Administrator in 
December 2001. Before his confirmation, Mr. Paulison was Chief 
of the Miami-Dade Fire Rescue Department, where he directed 
1,900 personnel and oversaw a $200 million operating budget. He 
also was responsible for the Dade County Emergency Management 
Office. Thus, Mr. Paulison has the kind of experience and 
background that our report strongly recommends for Federal 
emergency management leaders.
    A past president of the International Association of Fire 
Chiefs, Mr. Paulison has earned the respect of firefighters and 
emergency managers across the country. His nomination has the 
endorsement of that organization, as well as of the National 
Emergency Management Association, and several other groups.
    I look forward to hearing from him on what has been done to 
remedy the specific problems Katrina exposed and, even more 
important, to prepare for the 2006 hurricane season, such as 
improving evacuation plans, commodity tracking and 
replenishment, coordination with local, State, and other 
Federal agencies, communications interoperability, and 
temporary housing.
    We will also discuss other important issues, from the over 
reliance by the Agency on sole source contracts to preparations 
for other types of disasters, not only terrorist attacks but 
also those that our Nation has yet to experience, such as a 
pandemic disease.
    I thank Mr. Paulison for his continuing commitment to 
public service, and I welcome him back to the Committee today.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you very much, Madam Chairman, and 
welcome, Chief Paulison, to this hearing on your nomination to 
officially become the Under Secretary for Federal Emergency 
Management at the Department of Homeland Security--in effect 
FEMA--an agency that, as you know, Senator Collins and I would 
like to work to rebuild, to strengthen, and ultimately to 
rename.
    Chief, your background has clearly helped you prepare for 
the challenges that you are going to face in this position. As 
Senator Collins has said, and I want to restate it because it 
is so important, you have more than 30 years experience as a 
firefighter in the Miami-Dade County Fire Department. You rose 
through the ranks to become Chief with oversight of the 
County's Office of Emergency Management. You led the U.S. Fire 
Administration, briefly served as Director of FEMA's 
Preparedness Division, and have now served as FEMA's Acting 
Director since September 2005.
    I do not think there are many people who would disagree 
with the contention that many of the problems that we, on this 
Committee, and the Nation, saw in FEMA's response to Hurricane 
Katrina were the result of a management team there that did not 
have the same professional experience in emergency response and 
management that you have. That is one of the reasons our 
Katrina Report recommends that the leadership of this new 
authority that we would like to build up from FEMA have 
sufficient and relevant experience, as you do.
    I want to say here publicly that I also appreciate many of 
the actions that you have taken as Acting Director of FEMA--
your hiring goals to bring the Agency to full strength; your 
plans to pre-position relief supplies better throughout areas 
that are presumed to be hit by hurricanes; and your programs to 
equip your personnel, and other personnel, better.
    Although these initiatives will help us prepare better, I 
know you will agree we have far more work to do, especially as 
we head into a hurricane season that experts have ominously 
warned favors more catastrophic storms in both the Gulf Coast 
and, I might say, along the East Coast getting closer to the 
neighborhoods of Senator Collins and myself.
    Bottom line: We need a strong FEMA with a strong manager 
leaning into the wind, not being blown apart by it. And I have 
confidence that you can be and will be that person.
    I know that there are those who believe FEMA should be a 
separate agency again and take it out of DHS. Our Committee's 
investigation found, frankly, that FEMA was never prepared for 
a catastrophe of Katrina's scope and intensity. And although it 
served the Nation well in previous years, particularly during 
the 1990s, it was not able to deal with every natural disaster 
of the 1990s as we had wanted.
    If you move FEMA out of DHS, you are not doing anything to 
strengthen FEMA. In fact, you are weakening it. You are 
isolating it from the resources it needs and from its collegial 
agencies within DHS that it must work with in a time of 
disaster.
    So I feel very strongly that what we need is more 
integration and coordination, not less, to strengthen America's 
emergency response, prevention. and recovery capability.
    I know that you agree with the Chairman and me that 
emergency management must remain within DHS. However, we need 
much more, I want to say to you, than FEMA is now capable of 
delivering. And we have to work together with you to give you 
that capacity as we go forward.
    I would like to briefly add a word about the ongoing 
Katrina recovery. I want you to know, Chief, and you will not 
be surprised by this, that on this Committee we continue to 
receive reports of inadequate planning, poor coordination, 
inflexible guidelines, and still some ineffective communication 
on the part of a few FEMA personnel.
    I know that some of your recovery programs were not created 
for a catastrophe of Katrina's proportions, which is why the 
Chairman and I introduced legislation immediately after the 
storm to address some of the most pressing needs.
    One of the most essential proposals was to give the 
President the authority to waive the $26,200 individual 
assistance cap. Unfortunately, that legislation was rejected. 
Nearly 14,000 people impacted by Katrina have now reached that 
cap and need additional assistance. This is an example of one 
of the additional resources and capacities that I think FEMA 
needs to manage successfully during long-term recovery efforts 
for communities and for individuals. I hope we can have your 
support as we develop some of those more effective approaches.
    Finally, some problems cannot wait. For example, as you 
know, FEMA recently gave 30-days eviction notice to some 
evacuees still living in apartments and trailers. These are 
Hurricane Katrina evacuees. Evacuees and local officials are 
expressing frustration and some anger on the argument that we 
cannot abandon these people now. I hope you will indicate to us 
during the hearing the ways in which you will move forward with 
the recovery in a fair and just manner.
    But bottom line, it seems to me that you are a good and 
able man to be put into this tough position. You will have the 
support of the Members of this Committee, certainly of both 
parties, as we go forward to prepare America to respond to all 
hazards and all disasters much better than our government did 
in response to Katrina.
    I want to apologize in advance. There is a joint session of 
Congress at 11 a.m. to hear Prime Minister Olmert. I have been 
honored to be asked to be on the escort committee to bring him 
into the hall. He probably would come into the hall whether I 
was there or not, but I would like to be there personally.
    So I am going to file some questions with the Committee and 
have confidence that Senator Collins and other Members will 
probably ask some of the questions that I would have asked.
    I wish you the best, Chief, and I look forward to working 
with you. Thank you.
    Chairman Collins. Thank you, Senator Lieberman.
    Before calling on the rest of my Senate colleagues for 
their opening statements, I am going to ask their indulgence 
while I call on Congressman Shaw for his introduction because 
he does have a tight schedule and needs to get back to the 
House.
    Congressman, we are very pleased to have you here this 
morning. Please proceed with your introduction.

   TESTIMONY OF HON. E. CLAY SHAW, JR., A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Shaw. Thank you, Senator Collins, and I will be joining 
my friend, Senator Lieberman, as part of the escort committee 
in just a few moments so I will also be leaving this hearing.
    Chairman Collins and Ranking Member, Senator Lieberman, it 
is my distinct pleasure to appear before you and the rest of 
your Senators to introduce a man whose job it is to answer 
America's alarms.
    As you know, David Paulison was appointed Acting Director 
of the Federal Emergency Management Agency by President Bush in 
September 2005. He ascended to that position as we began the 
difficult and demanding process of recovering from Hurricane 
Katrina, one of the worst storms in our Nation's history.
    The term natural disaster does not even begin to describe 
the devastation that was wrought by not only just Katrina but 
also the major storms that followed, Hurricanes Wilma and Rita. 
Mr. Paulison rose to the occasion to lead our Nation's relief 
and recovery efforts.
    David Paulison has long been a constituent of mine, and I 
personally supported him to be named permanent director of FEMA 
last fall because of his proven ability to meet major 
challenges head on through his effective leadership, remarkable 
management skills, and thorough approach.
    Before joining FEMA, Mr. Paulison, who has 30 years of fire 
and rescue experience, was Chief of the Miami-Dade Fire and 
Rescue Department. In that position, he oversaw 1,900 personnel 
with a $200 million operating budget and a $70 million capital 
budget.
    He also oversaw the Dade County Emergency Management 
Office, which I have visited several times. I can tell you 
firsthand that Mr. Paulison kept a well-organized and efficient 
Emergency Management Office in South Florida, which I also say 
is one of the most technically advanced in the entire country.
    He began his career as a rescue firefighter and rose 
through the ranks of rescue lieutenant commander, assistant 
chief, and then deputy for administration before becoming 
Miami-Dade Fire Chief. He is also a certified paramedic.
    As Fire Chief, he oversaw the Miami-Dade Urban Search and 
Rescue Task Force. His emergency management expertise includes 
major disasters such as Hurricane Andrew and the crash of 
ValuJet Flight 592 into the Florida Everglades.
    Knowing David Paulison and having worked with him in the 
past, I can tell you that he does not want this job because it 
is easy. There is nothing easy about the job of the FEMA 
Director, and he knows full well that every step he takes will 
be second-guessed by the Congress of the United States. He 
wants this job because of challenges and because of his 
passionate belief that America can not only survive times of 
tragedy but has the strength to rise above them and be 
strengthened by the tragedies that we experience.
    As you deliberate today and consider this important Senate 
confirmation, I hope you remember that for the last 30 years 
David Paulison has been the guy who runs into the fire. He 
should be honored and respected during his confirmation process 
for his distinguished service to his Nation in times of tragedy 
and crisis, which I am sure will be the case.
    Our neighborhoods, our communities, and our dependency is 
on his leadership.
    I might say, Senator Collins, your mention of wanting 
strength, effectiveness, and experience is exactly what David 
Paulison is all about. As Chairman of the Florida Delegation, 
it is my great honor to introduce to you the Acting Director of 
the Federal Emergency Management Agency, David Paulison.
    Chairman Collins. Thank you, Congressman Shaw, for taking 
the time this morning to introduce the nominee. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman, for holding 
this important hearing.
    The position of Under Secretary for Federal Emergency 
Management is an enormous responsibility, particularly during a 
time when our Nation faces seemingly constant hazards in the 
form of both natural disasters and terrorist threats. It is 
critical that the Under Secretary for Emergency Management be 
an individual with experience, skill, leadership, and 
integrity. Chief Paulison, I believe you possess these 
qualities, and I am pleased you are here today.
    During Chief Paulison's recent visit to my office, we 
discussed the challenges facing FEMA. I was impressed with his 
background, and I believe he is the right man for the job. 
Leading FEMA through this time of transition will be an 
undertaking of monumental proportions. Chief Paulison, your 
willingness to take on this task speaks volumes about your 
character. I thank you for accepting this challenge, and I 
thank your family for the sacrifices that they have made and 
they are going to be making so that you can put in the long 
arduous hours that will be required. Unfortunately that job is 
a 24/7 operation. Again, that is a big responsibility and a 
great sacrifice to your family.
    I also want to take a moment to recognize all of the FEMA 
employees for their hard work and sacrifices, performing what 
they must feel like is a thankless job. Emergency management is 
important work, and our Nation owes much gratitude to the men 
and women of FEMA who have assisted capably in the response to 
disasters in my home State of Ohio, as well as home States of 
all of my colleagues.
    Chief Paulison, I look forward to learning of your 
intentions for revitalizing FEMA. As you know, the Members of 
this Committee will be actively engaged in oversight of FEMA's 
progress. I encourage you to be as candid as possible with this 
Committee, to let us know what Congress might do to assist you 
in turning the Agency around.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman.
    Mr. Paulison, welcome back to the Committee, and I also 
want to add my welcome from the Committee to your family that 
are present here this morning. I want to tell you that it is 
great to see you again.
    Mr. Paulison, one of my primary concerns is FEMA's budget. 
During the Committee's hearings on Hurricane Katrina, former 
FEMA Director Michael Brown testified that FEMA was underfunded 
during his tenure. Yet Mr. Brown never reported these budget 
issues to Congress, and we learned of his concern only after he 
resigned from FEMA.
    Mr. Paulison, as the Director of FEMA, you will be charged 
with ensuring that the Nation is prepared to respond to Federal 
disasters. If the President's budget jeopardizes that mission, 
it is your responsiblity to inform Congress. I know you will 
take that responsibility seriously.
    I also believe that FEMA's budget problems have been 
compounded by its placement under the DHS umbrella. Just last 
week the House Appropriations Committee passed a bill to 
decrease FEMA's fiscal year 2007 budget by $325 million from 
current spending levels. If FEMA is not a funding priority now, 
during the first budget cycle after Hurricane Katrina ravaged 
the Gulf Coast, it never will be.
    Another issue is the preservation of the FEMA Pacific Area 
Office, which is located in Honolulu. When we met in my office 
last week, you made it clear that you understand the importance 
of having a FEMA office in the Pacific, and I appreciate your 
support and your comments there.
    Like many others, I was dismayed, and we spoke about this 
when Project Impact, a FEMA disaster mitigation program that 
encouraged community preparedness--and I want to say this 
slowly--through public-private partnership, was discontinued in 
2001. Project Impact was replaced with the Pre-Disaster 
Mitigation Grant program, PDM, which fails to offer the same 
sustained partnership between FEMA and local communities. Nor 
does it provide the same level of private sector involvement as 
Project Impact. And I intend to look for ways to improve upon 
the PDM program to revive these partnerships. And I hope, if 
confirmed, you will work with me on this effort.
    I want to commend you for your background and experiences, 
which I feel are key in carrying out your duties as Director of 
FEMA. I also commend you for your commitment to public service 
and emergency management. I hope your tenure will do much to 
restore respect for men and women for FEMA.
    Thank you very much.
    Chairman Collins. Thank you, Senator. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman.
    Mr. Paulison, I welcome you to the Committee and to your 
assignment.
    I started my career in various levels of State, Federal, 
and local governments. So I believe in government. I believe in 
the importance of its various missions.
    I must say, and particularly in my term here in the Senate, 
I vacillate every day from being a liberal to a libertarian, 
and sometimes three or four times a day depending on how well 
government is performing or not performing.
    And my experiences with FEMA have left me more often on the 
libertarian side of the coin because of my frustration and the 
frustration of many of my constituents in getting responses, 
getting answers, and getting decisions from that agency.
    They talk in business about the moments of truth and those 
being the critical times where a response or a non-response 
really secures or loses a client, a customer, or a supporter 
for life.
    By the nature of its work, FEMA is dealing with moments of 
truth, where people are in crises, they are in despair, and 
they are afraid. They have lost much or everything that they 
have worked all of their lives to accumulate. They need 
answers. They need responses. They need sometimes the 
impossible. But they, most of all, need the sense that 
government and the agencies of government are working as allies 
and bring a certain expertise and a desire, a dedication, and a 
willingness to assist in what they are faced with.
    That is the mission of FEMA. It seems clear that is the 
reason that the agency exists.
    My own experience, and it goes really beyond or is really 
unrelated--its related, but it is separate from New Orleans and 
the Gulf of Mississippi, which have understandably and 
deservedly gathered so much of the headlines and so much of 
this Committee's and other committees' attention in the last 
year. I think that has been both necessary and valuable for 
those of us who have been unable to bring that same kind of 
focus and a spotlight on what has happened to FEMA in other 
parts of the country, such as parts of Minnesota, because they 
do not reach that magnitude.
    But, in my view, while there can be some explanation for 
the magnitude of the disasters in the Gulf overwhelming the 
response mechanisms of FEMA and other agencies, there is not 
that same explanation or excuse for the lack of response, for 
example, when Northwestern Minnesota's Roseau floods in June 
2002, devastating that city and the city officials, part-time, 
many of them unpaid city officials, well-meaning, well-
intended, and hard-working, spending 4 years trying to get 
simple answers out of FEMA.
    So I have a lot of questions and my time has expired, but I 
appreciate your willingness to take on this task but to really 
make FEMA once again a responsive, responsible agency, it is 
going to require a huge commitment on your part and the support 
of this Congress. I hope it will be forthcoming.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Mr. Paulison has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and has had his financial 
statements reviewed by the Office of Government Ethics. Without 
objection, this information will be made part of the hearing 
record with the exception of the financial data, which are on 
file and available for public inspection in the Committee's 
offices.
    Our Committee's rules require that all witnesses at 
nomination hearings give their testimony under oath. Mr. 
Paulison, I would ask that you please stand and raise your 
right hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Paulison. I do.
    Chairman Collins. Please be seated.
    Mr. Paulison, I understand that you have some family 
members present today, and I would invite you to introduce them 
to the Committee.
    Mr. Paulison. I would like to introduce probably my most 
ardent supporter, my wife, Kathy; my daughter Beth, who is my 
biggest cheerleader here; and also home watching is my daughter 
Amy, who is in Chicago; and both of my granddaughters, Isabelle 
and Lilly are both watching.
    Chairman Collins. We welcome them all, whether they are 
here in person or with you virtually. It is good to have that 
support here, I am sure.
    Mr. Paulison, I would now invite you to proceed with your 
statement.

 TESTIMONY OF R. DAVID PAULISON,\1\ TO BE UNDER SECRETARY FOR 
   FEDERAL EMERGENCY MANAGEMENT, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Paulison. Thank you, and thank you for allowing me to 
introduce my family. I appreciate that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Paulison appears in the Appendix 
on page 40.
---------------------------------------------------------------------------
    Good morning, Chairman Collins, Senator Lieberman, though I 
know he had to leave, Senator Dayton, Senator Akaka, Senator 
Voinovich. I appreciate your being here, and I appreciate the 
support that I have had from each of you in this Committee as I 
have talked to you.
    It is my honor and privilege to come before you today as 
the President's nominee to be the Under Secretary for Federal 
Emergency Management at the Department of Homeland Security and 
the Director of FEMA. I am grateful for the confidence and 
support placed in me by President Bush and Department of 
Homeland Security Secretary Michael Chertoff, and I thank them. 
And quite frankly, I thank you for giving me the opportunity to 
be here today to outline my vision for a strong and robust 
Federal Emergency Management Agency.
    Again, as I thank others, I want to thank my family for 
their support. I think that, as Senator Voinovich pointed out 
very clearly, it is a sacrifice for the family, and they have 
been my rock as I have gone through the last 35 years of 
serving in an emergency management capacity.
    I have served as the Acting Director of FEMA since last 
September, and I come before you today asking you for your 
support to continue leading FEMA. I make a solemn promise to 
you and the American people. It is my vision here now, and for 
the future, to strengthen FEMA, to strengthen its people, its 
processes, its capabilities, in order for it to be the 
preeminent national agency for emergency management, answering 
the call to serve the Nation and its citizens in times of need.
    During times of disasters, be they natural or man-made, 
this Nation's emergency response capability has been faced with 
enormous challenges in recent years. From the flooding in 
Houston from Tropical Storm Allison, the terrorist attacks of 
September 11, 2001, back to back unprecedented hurricane 
seasons in 2004 and 2005, and a myriad of other disasters that 
have impacted this Nation, the people who dedicate their lives 
to emergency management have responded, at times faltering, but 
always with a vision of putting the lives and welfare of 
disaster victims first.
    It is with this same outlook of putting others first where 
I will continue my efforts, alongside the dedicated people of 
FEMA and Homeland Security, to accomplish our current 
priorities and build on the future.
    These priorities include preparing not only our Agency but 
preparing the Nation, be it for the upcoming hurricane season 
or any disaster. We will engage constructively with the 
emergency management officials, our Federal counterparts, the 
Department of Defense, and non-governmental organizational 
partners to maximize communication and coordination for all-
hazard disaster preparedness, response, recovery, and 
mitigation activities.
    We will build, within FEMA, a 21st Century competency in 
operations, logistics, procurement, and communications. We will 
do all of this and, at the same time, restore the pride and 
spirit of FEMA employees and the Nation's trust in our 
abilities.
    I believe that, along with the dedicated employees of FEMA, 
if you decide to confirm me, we will accomplish these goals by 
the adhering to the tenets of leadership, partnership, 
investment, and a solid business approach.
    FEMA will set clear and unambiguous goals, communicate and 
listen effectively, make informed decisions, and demonstrate 
personal and professional integrity in all that we undertake.
    With what is predicted to be another very active hurricane 
season just days away, much has already been accomplished 
toward strengthening and retooling FEMA. Since September of 
last year, I have led FEMA through a period of much-needed 
retooling to gear up for the next hurricane or major disaster. 
Our top three areas of improvement have been situational 
awareness and communications, logistics and commodity 
management, and victim management and assistance.
    In all that needs to be accomplished for strengthening FEMA 
and building it to become the preeminent national-level agency 
for emergency management, all of this cannot be accomplished 
without the Agency's No. 1 asset, and that is the employees of 
FEMA.
    The employees at FEMA are public servants to the highest 
degree, and they bring years of expertise in emergency 
management. FEMA is a very proud agency with fine individuals 
who take great pride in their work in this Agency.
    If you decide to confirm me, I will stand before the 
employees of FEMA and ask them to allow me to work hand-in-hand 
with them to move past any negative perceptions that remain 
from when we faltered. Together, I know we will build back the 
full trust of the American people and in doing so make the 
pride of FEMA employees even stronger than it already is.
    I have laid out a personal mission and a list of priorities 
in my written testimony. As I conclude, I would like to remind 
the Committee that I started my career with a heart for public 
service and serving others. My commitment to serving others 
remains strong and I am deeply humbled and grateful for the 
opportunity to lead and represent this Agency. I will do my 
best for the call of America's leadership to FEMA.
    Thank you very much, and I would be happy to answer any 
questions you might have.
    Chairman Collins. Thank you very much, Mr. Paulison. Your 
heartfelt commitment to public service impresses me and, I am 
sure, the other Members of this Committee, as well.
    We will begin with three standard questions that we ask of 
all nominees and then we will do a first round of questions 
limited to 6 minutes each, followed by a second round of 
questions.
    First, is there anything that you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Paulison. Senator, I am not aware of any at all.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of this office?
    Mr. Paulison. I do not.
    Chairman Collins. And third, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Paulison. I do.
    Chairman Collins. Mr. Paulison, before I turn to policy 
issues, I do want to inform the Members of this Committee that 
last night Senator Lieberman and I became aware for the first 
time of an issue involving certain deductions that you have 
claimed on your Federal tax returns.
    I understand these deductions were claimed based upon the 
advice of your accountant. But since this is new information to 
come to our attention, I want to share that with our 
colleagues: Both the Minority and Majority staff will be 
sitting down with Mr. Paulison after this hearing and 
interviewing his accountant to get additional information, 
which we will share with the Members of this Committee, as 
well.
    Senator Lieberman and I are recommending that we proceed in 
that manner.
    Mr. Paulison. I support that also, and quite frankly, I 
just became aware of it last night, also. So I am looking 
forward to it.
    Chairman Collins. Thank you.
    Mr. Paulison, yesterday Secretary Chertoff briefed Senator 
Lieberman and me about the steps that the Department has taken 
to improve the preparedness for this year's hurricane season. 
You have mentioned three areas that have been of particular 
priority to you. Secretary Chertoff has convinced me that there 
has been a lot of work done to pre-stage commodities in greater 
quantities and also at more appropriate locations, and those 
are positive steps forward.
    There is, however, a great deal of skepticism and concern 
among the victims of Hurricane Katrina about whether or not 
FEMA really has taken the actions necessary to ensure a far 
better response this year if disaster strikes.
    They point, for example, to the fact that there are still 
those, in Louisiana in particular, that are awaiting temporary 
housing. The individuals in Arkansas point to the unused 
manufactured housing still sitting idle in Hope, Arkansas. I 
have seen that firsthand.
    Local officials tell us that debris removal still has not 
been completed. We know from the Army Corps of Engineers that 
the work on the levees is still not finished, increasing the 
vulnerability of the New Orleans area.
    In light of all of the problems that still exist in the 
recovery stage for a hurricane that occurred so many months 
ago, what assurances can you provide to this Committee that we 
are, in fact, better prepared to respond should any kind of 
disaster strike this year?
    Mr. Paulison. I think, first of all, you are asking the 
right questions. There are a lot of issues out there that we 
have to deal with inside of FEMA.
    However, we have very clearly and very carefully and 
methodically taken those lessons learned from Katrina.
    First of all, let me back up a minute. Katrina was 
obviously an overwhelming event for everyone, far beyond what 
FEMA was designed to do. Just take the housing piece. We 
normally house 3,000 to 5,000 people a year. In Katrina, we 
have either provided direct housing assistance or monetary 
housing assistance to over 900,000 people. That is remarkable.
    You talked about the trailers that we put down. Yes, there 
are people who still do not have them. But we have put over 
112,000 families in travel trailers in just a few months. That 
is a remarkable housing program. If you just figure 2.5 people 
in a family, you are talking about 250,000 or maybe 300,000 
people. That is a significant accomplishment. It was not 
pretty, and it was rough at times. But despite the small size 
of this Agency and the limited scope of what our capabilities 
were, I think we did an outstanding job.
    However, I am not making excuses for anything. We are 
looking very carefully at those things that we know went wrong 
in Katrina and did not go smoothly, quite frankly taking 
reports that came out of this Committee, the one that came out 
of the House Committee, the one that came out of the White 
House, the IG's report, the GAO report. We are getting a lot of 
help in identifying some of those weaknesses, and we are taking 
those and putting them into several blocks. Particularly, what 
can we do for this hurricane season and what is it going to 
take longer term down the road.
    Let me touch on a couple of them. Logistics that you 
mentioned, we have tripled and sometimes quadrupled the amount 
of supplies that we had during Hurricane Katrina. We had, I 
think, 180 truckloads of meals ready to eat before Katrina, and 
right now we have over 770.
    With water, we had 600 truckloads of water before Katrina, 
and now we have 1,500 truckloads. Ice, we had 430 truckloads of 
ice, and now we have 2,000 truckloads of ice, ready in our 
stock.
    And also, we did an interagency agreement with the Defense 
Logistics Agency as a backup to all of that in case we even 
start depleting those supplies. So we are going to have a 
significantly larger amount of supplies this year than last 
year.
    Last year we were not able to track any of our tractor 
trailers that left our warehouses on the way to the recovery 
agency. We lost track of trucks for days sometimes. They would 
end up in the wrong place or there was no way to redirect them 
somewhere else.
    We have put a very sophisticated global positioning system 
in place so all of the tractor trailers coming out of our 
supply warehouses and all of those out of the Defense Logistics 
Agency we are going to be able to track. Ours particularly, we 
will be able to track real-time on a map. We will know exactly 
where every truck is. We can even call up and have the computer 
tell us where are all of the water trucks? Where are all the 
meal trucks? Where are all the ice trucks? And it will bring 
those up separately. We are doing things like that.
    Communications, a major problem, as your report pointed 
out, during Hurricane Katrina. A break-down in communications 
between the local community and the State, between the State 
and the Federal Government, and quite frankly inside the 
Federal Government itself. FEMA was not communicating like it 
should have communicated with the Department of Homeland 
Security, not sharing information on a timely basis. We have 
fixed that. There is a protocol issue in place, and there is 
also an equipment issue in place. We fixed the protocol piece.
    FEMA is part of the Department of Homeland Security, and we 
are going to act like we are part of Homeland Security. We are 
integrating ourselves into that Agency to make sure we are part 
of it just like the other operating components. I think that is 
an important thing to say.
    Equipment-wise, we have bought a tremendous amount of 
satellite equipment for voice and video. I know you have more 
questions, and I do not want to ramble on, but we are doing a 
lot of things to put in place what were not in place to make 
sure that what happened in Katrina does not happen again.
    Chairman Collins. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Mr. Paulison, when you and I met last week we discussed the 
importance of the FEMA Pacific Area Office located in Honolulu. 
As you know, last year FEMA considered closing the PAO to cut 
costs.
    I first proposed creating that office in 1991, and since 
then I will tell you that office has really made a difference, 
not only in Hawaii but across the Pacific. I want you to know 
that I fought its closure in 2005 by securing a promise from 
former FEMA Director Michael Brown to keep the office open, 
which he did.
    In our chat we talked about that, and I would like to ask 
you about your feeling about that particular office in Hawaii 
and the Pacific.
    Mr. Paulison. That is a very important office for FEMA. It 
gives us a connection out there we would not normally have, 
plus people on the ground to respond to disasters in your area. 
I am committed to support that office and keep it open. And we 
are projected funding it all the way through 2010. So there is 
no intention at all on my part to close that office.
    Senator Akaka. Thank you very much for your commitment on 
that.
    Mr. Paulison, an issue that has troubled me, and I have 
mentioned it already, is Project Impact. I understand FEMA 
considers the PDM a replacement for Project Impact, but I am 
concerned certain benefits of the former program have been 
lost. For example, Project Impact encouraged private sector 
participation and created a structure that fostered ongoing 
interaction between FEMA and State and local communities. And 
we know this is needed.
    How will you enhance the PDM grants to better utilize the 
private sector and to provide permanent interaction between 
FEMA and the State and local communities?
    Mr. Paulison. The PDM process that we are using now, we 
feel is a much fairer process. It is more competitive and takes 
a lot of the politics out of where the dollars go. And also, we 
have a private sector office inside Homeland Security that we 
are working with and will tie into the PDM process.
    However, what I would like to do is to work closely with 
your office and this Committee on any recommendations that you 
would have for that particular program.
    Senator Akaka. Thank you. Thank you for that.
    Also, as I said in my statement, I am concerned that FEMA's 
budget receives inadequate attention and scrutiny while under 
the DHS umbrella.
    We heard from former FEMA Director Brown during the Katrina 
hearings that he had numerous concerns regarding FEMA's budget 
during his tenure, yet did not report these concerns to 
Congress. I understand the Chairman has already asked you to 
commit to providing information to this Committee if requested. 
And I would like to add to that request by asking for your 
commitment to notify this Committee if FEMA is not receiving 
the funding allocations from DHS and OMB you believe necessary 
to fulfill your mission.
    I would like to hear your comment on that.
    Mr. Paulison. You have my commitment to speak to this 
Committee as honestly and frankly as I possibly can. And the 
budget issue is one of those things that obviously I will.
    One of the biggest budget issues we had was actually for 
staffing. And Congress has given us extra dollars in 2006 and 
also in the supplemental budget to do a lot of hiring, and we 
are in the process of doing this. So we are grateful for that. 
That is solving a lot of our issues, quite frankly, but I 
really appreciate your concern.
    Senator Akaka. Mr. Paulison, an issue that has been on my 
radar screen for some time is qualifications for FEMA 
personnel, specifically political appointees. Would you share 
with us what background and qualifications you will require if 
FEMA political appointments are made?
    Mr. Paulison. I think any person coming into FEMA, 
especially at the leadership level, needs to have the 
qualification to do the job. I can give you a couple of 
examples. I just appointed the Director of Region I, Art 
Cleaves, who actually was the State of Maine Emergency Manager, 
very well respected emergency manager around this country and 
has done an outstanding job in Maine.
    The Region II Director that I just appointed has been a 
previous regional director and also has a lot of emergency 
management and fire experience.
    I just appointed the Region VI Director, who was the Chief 
of Plano, Texas, Bill Peterson, who has 30 years of service in 
emergency management.
    So I can just tell you that based on--I can give you 
examples of people that I am bringing in to make sure that 
those who do come in are going to have experience.
    My new Deputy Director was an admiral in the U.S. Coast 
Guard, 25 years of service, ran the Pacific Fleet, tremendous 
amount of operational experience. He is now my new Deputy 
Director.
    We brought Deidre Lee over from TSA to deal with our 
acquisition part of it that we so struggled with in Hurricane 
Katrina.
    So I am bringing experts in that have the experience to do 
the job, and that is the right way to run this organization.
    Senator Akaka. Thank you for that. And thank you for your 
responses. I asked that because I know you are here with a 
great background, and experience to boot, and I just want to 
tell you that we are happy to have you here. Thank you.
    Chairman Collins. Thank you. Senator Voinovich.
    Senator Voinovich. Thank you, Madam Chairman.
    Madam Chairman, I look at this Department, FEMA and 
Homeland Security, as a former mayor and governor. We have a 
big immigration problem today in part because the Federal 
Government did not previously provide the needed budgetary 
resources to secure the border. This week probably we are going 
to pass an immigration bill. It is going to cost a great deal 
of money, and it is going to put a lot of pressure on the 
budget of the Department of Homeland Security.
    I believe Congress needs to begin devoting greater 
attention to budgetary priorities and fiscal realities. We 
continue to reduce taxes. Our debt is skyrocketing. The non-
defense discretionary budget, which is part of your budget, Mr. 
Paulison, is being squeezed.
    And I really think it is important that you and Secretary 
Chertoff come before this Committee and lay the cards on the 
table in terms of whether or not you have the resources to get 
the job done that we are asking you to do.
    In far too many cases, this Congress has asked departments 
to do work and then we do not give them the resources to get 
the job done. And from my way of thinking, if you do not give 
people the resources they need to get the job done, then you 
are basically telling them that you do not think very much of 
the job you have asked them to do.
    Madam Chairman, I also think we have to give some serious 
consideration to the fact that we are asking for the 
transformation of a massive department. Mr. Paulison is a 
political appointee. He is going to be gone with the next 
Administration. And I think some consideration should be given 
to a chief management officer or someone who can carry out the 
necessary transformation both at FEMA and the whole Department 
of Homeland Security. Because when this Administration is over, 
both you and Secretry Chertoff will depart. And goodness only 
knows what is going to happen in the interim period. And the 
Department cannot afford to be without skilled leadership, 
especially FEMA, which must be ready 24/7.
    So I think those are big problems this Committee must 
examine.
    Chief Paulison, the key to any organization's success is 
its workforce, having the right people with the right knowledge 
and skills at the right place and at the right time. As 
Chairman of the Subcommittee on Oversight of Government 
Management and the Federal Workforce, I am deeply concerned 
about the condition of FEMA's workforce. I believe had FEMA 
devoted more attention to human capital management prior to 
Hurricane Katrina, the Agency's response to the catastrophe in 
the Gulf Coast would have been more effective, although Katrina 
went way beyond anything that FEMA has faced in the past--I 
think we had better recognize that.
    FEMA currently has a high vacancy rate and has lost 
experienced senior career staff and managers. With half of your 
FTEs over 50 years of age, you stand to lose additional skill 
and talent in the coming years to retirement.
    In addition, with all the negative publicity your agency 
has received in the wake of Hurricane Katrina and now the 
discussion of yet another reorganization of FEMA, I would 
imagine morale is low and is affecting retention and 
recruitment.
    In short, if confirmed, you will face enormous workforce 
challenges. Please share your overall vision for improving 
human capital management at FEMA. How would you address the 
vacancy rates, retention, and succession planning? And how are 
you going to raise morale?
    Mr. Paulison. I think first of all that is an outstanding 
observation on your part. One of the biggest issues we are 
facing right now is the staffing of FEMA. The first step is 
obviously what Senator Akaka talked about as far as bringing 
the right number of people on board and the qualification. 
Because the workers actually start respecting the leadership of 
FEMA, and we are doing that.
    But also, probably more important, is making sure that our 
organizational staffing is as full as it can absolutely be. I 
want to go into hurricane season with at least 95 percent of 
our allotted slots full. We are working hard toward that.
    I think right now we are probably somewhat less, maybe 85 
percent, right in there. But I have 243 people in the pipeline 
to bring aboard so those hopefully will be coming on fairly 
soon.
    We are working hard. I have tasked our HR department to not 
only use their personnel, but I am getting assistance from HR 
people from other departments and even contract support to help 
recruit and bring people in.
    We just advertised this last week in three major newspapers 
in Washington, Boston, and Philadelphia for hiring to attract 
people to bring in, to bring good people in.
    What I do not want to do is just put bodies in there. They 
have to be good people. But at the same time I have to make 
sure that we move as expeditiously as possible to fill these 
slots. Our people are tired. A lot of them have literally been 
working 7 days a week. So we have to have enough staff going in 
where there is going to be relief for them.
    A major concern for me and it is one of my top priorities, 
quite frankly.
    Senator Voinovich. Thank you.
    The last comment I want to make involves the House cuts to 
Secretary Chertoff's MAX HR program. If the MAX HR budget is 
reduced, the Department will not be able to fund this critical 
personnel program. So I know we are concerned about that. And 
we must ensure that Secretary Chertoff has the money for that 
human resource initiative.
    Chairman Collins. Thank you. Senator Dayton.
    Senator Dayton. Thank you, Madam Chairman.
    It is virtually impossible to run an Executive Branch 
Agency from the legislative side, but that does not prevent any 
of us from trying.
    I was interested about what my friend and colleague, 
Senator Akaka, said about the benefits of the regional office 
in Hawaii. If you are looking for volunteers to eliminate a 
regional agency, I would like to volunteer Region V in Chicago, 
which I find I cannot assess whether that is indicative of the 
problems with FEMA or whether it is an exception, but it is in 
itself a problem.
    I do not have the time to give you the opportunity to 
review documents. In fact, I just received the letter myself 
yesterday from the correspondent for the Secretary of Homeland 
Security, to whom I gave a letter about this predicament in 
Roseau, Minnesota. I handed it to him at the Committee on March 
1 of this year. And now, after considerable prodding, received 
a letter almost 3 months later. That tells me something right 
there, if I cannot get a letter of response to my inquiry for 
almost 3 months.
    The letter also indicates that whoever wrote this, I guess 
it is the central office, or at least on behalf of Region V, 
claims that they have not received an appeal of their decision 
that had to be submitted by the State of Minnesota on behalf of 
the City of Roseau. They had not received it as of the date of 
this letter, May 23. The State's records are that it submitted 
the appeal to the FEMA Region V office on or about February 3 
of this year. So that is, again, a period of 3\1/2\ months 
during which the city thought that the Region V office or the 
Washington office was reviewing this appeal. And according to 
this document, the appeal has not even been received.
    We are talking about, well I was going to say ludicrous and 
also lunacy. I mean it literally drives--and I know these 
people in Roseau, Minnesota. It is a little town of 2,700 
people. It got flooded in June 2002, as wiped out as New 
Orleans was, just being a smaller city. The whole downtown, 
everything except the Polaris plant, was totally submerged in 
water. And that survived only because as people lost their 
homes to the flooding or to the sewage backing up, they went 
and all joined together to sandbag around the Polaris plant 
because that employs 1,900 people. And they knew that if that 
went under, the whole town would basically collapse.
    So these are hard working people, good honest people. No 
one is perfect, but these are straight shooters. And they have 
tried to deal with this bureaucratic black hole for the last 4 
years.
    And the nonsensical decisions that are made and foisted 
upon them, and the changing cast of characters. FEMA sends up 
one technical assistance contractor to advise them, and these I 
guess are private contractors hired by FEMA so there is a whole 
question of quality control and consistency of information, 
just knowledge of FEMA's procedures there. That one person 
assures them to follow these procedures and do not do other 
things. Then they are told subsequently, by the Region V 
office, that they were supposed to have done these and not 
those. And then FEMA sends up another technical assistance 
consultant, contractor, who then countermands what the first 
one said. And then that one is pulled off the job.
    It is like a Saturday Night Live skit, except it is not 
funny. And meanwhile the clock is ticking. You talk about the 
next hurricane season, we are talking about the Red River which 
floods regularly. This is now the fourth year that they have 
faced the prospect of another devastating flood and they cannot 
get the flood projects--they cannot get the formerly existent, 
now devastated, downtown reconstructed.
    It is just staggering, it really is. You are taking on this 
assignment. I just encourage you to look at it from the ground 
up. And if this is going to be a streamlined, efficient, and 
effective response mechanism of the Federal Government, I do 
not know whether the regional offices are an ally or an 
obstacle to that objective. There has to be some 
accountability. And there has to be a timeliness of response, 
that people can ask questions and get answers. They can ask the 
same questions of different people and get the same answers.
    They showed me the manual that they were given, basically 
said here is the manual, follow this. It was 4 years outdated. 
It was factually incorrect. Things have changed. FEMA cannot 
even publish a current manual to give to the local officials 
that have been devastated by a disaster.
    I just think that the whole thing is so dysfunctional now 
that I supported parts of what the Chairman, Ranking Member, 
and others have proposed about whether this is reorganized or 
not under one agency or freestanding, to me is secondary to 
having it reformed internally, streamlined, and consolidated.
    And frankly, if you have unfilled positions, you have an 
opportunity not to just fill those boxes on an organizational 
chart with new people but doing the same things. You have a 
chance to rethink, something that almost has never been done 
and almost would be a Herculean task in the Federal Government.
    But if we are ever going to get beyond these agencies that 
are so mired in their own bureaucracy and so overburdened with 
all of these laws and regulations and everything else that they 
cannot act either in a situation like FEMA, which is an 
emergency response and by definition has to act. You have an 
historic opportunity.
    And I just hope you will come back here after I have left 
but come back here and tell these colleagues of mine what is 
necessary to just go from the ground floor up and start to 
create an agency that can be responsive to people. Trust 
people, hold them accountable, but then allow them to act and 
give them the resources to do so.
    Thank you, Madam Chairman. My time has expired without a 
question.
    Mr. Paulison. Can I just make one comment?
    What I do want to do, though, is particularly on that one 
issue, Ed Buikema is the Director of Region V, and I am going 
to task him personally to look into the issues you have talked 
about and, if it is all right with you, have him contact your 
office.
    Senator Dayton. I will fly to Chicago to meet with him, 
happily. Or if he is out here, I would be happy, in fact, even 
prefer to meet with you and with him after you are confirmed. 
Thank you.
    Mr. Paulison. Thank you, sir.
    Senator Dayton. Thank you.
    Chairman Collins. Senator Carper.
    Senator Carper. Thanks, Madam Chairman. Chief, how are you 
this morning?
    Mr. Paulison. Fine, thank you.
    Senator Carper. I am sorry I missed your statement. I 
certainly will read it with interest. Anybody here from your 
family?
    Mr. Paulison. Yes, I have my wife, Kathy, behind me and my 
daughter, Beth.
    Senator Carper. Which one is which?
    Mr. Paulison. You just made a friend, I can tell.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I would say thanks to both of you. Thank 
you for sharing your husband and your father with our country.
    We had an event down in Southern Delaware the other day at 
the beach with a fellow named Jamie Turner, who you may 
remember. Jamie is head of DEMA, Delaware Emergency Management. 
And he and others in our state send their best wishes to you, 
and regards.
    We talked a bit about readiness for the upcoming hurricane 
season. We have been blessed in our State, we have not had a 
real head-to-head with a hurricane for about 50 years. I want 
to say it was Hurricane Hazel right around 1954. But it has 
been a long time.
    We have had plenty of tropical storms, a lot of Nor'easters 
and brushes with hurricanes, but nothing real serious.
    I am told that the seawater in the Atlantic Ocean off of 
our coast is a good deal warmer this year. Somebody told me by 
as much as six degrees, which sounds like an aberration. But 
whether it is six degrees or a couple of degrees, it is 
apparently warmer.
    I wonder what implications that might have for the 
likelihood of a hurricane actually coming to a place where it 
does not often come, and that is the DelMarVa Peninsula. We try 
to be ready, thought we were ready on the Gulf Coast for a 
pitch well telegraphed, and that was Hurricane Katrina. It 
turned out we were not ready at all.
    My hope is that we are ready on the DelMarVa Peninsula. But 
I would just ask you what do you think that FEMA might be 
doing, ought to be doing to help prepare for storms in 
communities like ours, where frankly we have been lucky in 
recent years?
    Mr. Paulison. First of all, let me just say that you have 
an outstanding emergency manager in Jamie Turner. He is one of 
the best in the country. It has been a pleasure working with 
him. He is very professional and really knows his job.
    Senator Carper. It is kind of a small world. Your daughter 
is here. And if you end up as head of FEMA, she will be like 
first daughter or something. But Jamie Turner, who is head of 
DEMA, his daughter is my scheduler. She tells me where to go 
every day, a job a lot of people would like to have.
    Mr. Paulison. I was just in Miami at the Hurricane Center. 
We kicked off Hurricane Preparedness Week with Max Mayfield and 
had this very discussion you are talking about, about the Gulf 
being warmer. Also, some of the trade winds are not favorable 
for hurricanes moving into the Atlantic.
    So we have to caution ourselves that, although we have to 
focus on the Gulf because of the vulnerability of having 
112,000 families in travel trailers and the weakness of the 
infrastructure, we simply cannot allow ourselves to neglect the 
Atlantic Coast where, quite frankly, the bulk of hurricanes 
actually hit.
    And you are right, your State and those around you have 
been very lucky in the last decade or so, couple of decades, 
about getting storms.
    One thing that concerns me is complacency. When you have 
not had a hurricane in a while, people do not necessarily take 
care to prepare themselves for hurricane season, with their 72 
hours of food and water and medicines.
    Senator Carper. Ironically, excuse me for interrupting, it 
is not just places where hurricanes have not hit in a while. It 
is even places where they do.
    Mr. Paulison. That was going to be my next comment. Even in 
South Florida, where we came off of Hurricane Andrew and 
several other hurricanes in this year, what I saw was not a lot 
of personal preparedness. So that concerns me.
    I do have a lot of confidence in your emergency management 
system, though, your State, Senator Collins' State, and others 
up and down the East Coast. I think that Hurricane Katrina was 
a wake-up call for emergency managers across this country, for 
all of us. It is going to be a defining moment this year in 
emergency management. I see a really renewed interest in people 
checking to say OK, we thought some of the Gulf Coast people 
were ready and obviously they were not. Am I ready?
    A lot of emergency managers are questioning themselves. So 
I think that is happening.
    My concern is the personal. Are they going to evacuate when 
they are told to evacuate? And are they going to prepare 
themselves if they are not in an evacuation zone but in a high 
wind zone?
    Some of the messages we are trying to get out is make sure 
you are prepared. We are also doing an evaluation of all of 
those evacuation plans up and down the Atlantic Coast. Are 
there good plans in place? Are the shelters in place? What 
routes are they going to take? Where are people going to go? 
Where are they going to stay? Those are all important pieces 
that have to fit together for this system to work.
    Senator Carper. One of the folks from your team in the 
Region III area was with us at this, really it was a session 
with DEMA, some of our Congressional delegation, the local 
towns and managers and mayors and so forth.
    The lady who was there from FEMA talked about the 
repositioning of materials and equipment that maybe had not 
been done before. She talked about 40-foot trailers, 20-foot 
trailers, and so forth that were being positioned now.
    What kind of materials and equipment are in those trailers 
and how can they be helpful?
    Mr. Paulison. I briefed the staff earlier. We have doubled, 
tripled, and sometimes quadrupled the number of supplies that 
we had prior to Hurricane Katrina. So we are talking about 
food, basically MREs and other meals ready to eat, different 
brands, food, water, ice, blue tarps, medical supplies, all of 
the things that we normally have that we will use to respond to 
a disaster.
    We are really bulking up on those supplies, putting GPS 
tracking systems in the vehicles. And also we are going to have 
a very aggressive pre-positioning plan.
    At least with hurricanes, we know when they are coming. We 
know when they are coming and pretty much where they are going. 
The 5-day forecast that the Hurricane Center at NOAA is using 
now is as accurate as the 3-day forecast was 10 years ago. So 
we are getting much better at that.
    So we are going to be able to preposition a lot more. We 
are going to be very aggressive in repositioning people, 
equipment, and supplies.
    Senator Carper. Has my time expired, Madam Chairman?
    Chairman Collins. It has.
    Senator Carper. Is there going to be a second round?
    Chairman Collins. We are going to do a second round.
    Senator Carper. Great. Thanks so much. Thank you.
    Thanks again, and welcome.
    Chairman Collins. Mr. Paulison, the attacks on our country 
on September 11 revealed a serious problem with a lack of 
compatibility of communications equipment used by first 
responders and by local, county, and State governments. 
Unfortunately, we learned again last year, with Hurricane 
Katrina, that much the same problems still exist.
    In fact, in one parish there were two separate and 
incompatible communications systems being used.
    In November 2001, when you had your nomination hearing to 
be the U.S. Fire Administrator, you were asked at that point 
about the problems associated with achieving interoperability. 
And you called this a ``major issue.'' And you said, ``I think 
the long-term solution is a countrywide communications system. 
We are talking about setting up satellites and towers across 
the country where we can have an emergency frequency across the 
country that everyone can tune in to when they have a 
disaster.''
    You went on to say that the Federal and State Governments 
need to help finance such a system for first responders.
    It is 4\1/2\ years later, Mr. Paulison. Are we any closer 
to making real gains in having compatible communications 
equipment for our first responders?
    Mr. Paulison. I think we are a lot further along. We are 
not where I predicted we needed to go, as far as a nationwide 
communications system. However, we do have a lot of ability to 
make our radios interoperable with some different types of 
technical equipment. Inside of FEMA, we have quite a few of 
that stuff that we purchased now where we can go into a local 
community and help them make their radio systems interoperable.
    What you mentioned is rampant across the country. We will 
have the police on 800 megahertz, we will have firemen on UHF, 
and the public workers on VHF, and just all over the place. And 
when it comes to the time of a disaster, there has to be an 
ability to communicate with each other in some form or another.
    There are different ways to do that. You can do it with 
swapping radios. You can do it with using units that put those 
together like a JPS 1000, and there is a lot of other places to 
do with protocols and things like that.
    I think we are further along. We are not where we need to 
be. This is something we still need to pursue as a country. We 
have a ton of firefighters sitting behind me that are here 
supporting me, and I did not thank them earlier. So thank you, 
guys, for being here. And they are very well aware of this 
interoperable issue.
    We are making progress. We have our 700 megahertz system 
out there now. But at the same time, we are not where we need 
to be. And I pledge, as far as FEMA is concerned, and I know 
that Secretary Chertoff is extremely interested in this 
project. We have to develop a nationwide communications plan of 
how we are going to communicate when we have these disasters.
    So I am committed to stick with it. It is something we have 
to do. And we are not quite where we need to be yet.
    Chairman Collins. In addition to equipment problems, 
whether it was equipment that did not survive the storm or 
equipment that was incompatible, there was a problem with 
communications that simply involved people not communicating. 
You touched on this in your response to a previous question and 
in your opening remarks.
    What specifically has FEMA done to ensure that 
decisionmakers across the country have better access to real-
time accurate information? It was just appalling for this 
Committee to learn that officials in Washington, that officials 
at Northern Command, which were responsible for mobilizing 
military assets, did not know in a timely fashion that the 
levees had broken in New Orleans. That was only the greatest 
example, but that was repeated time and time again.
    I believe that we have made real progress in pre-staging 
commodities. But if we have not improved the ability for key 
decisionmakers to understand what is happening on the ground, 
we will not improve the response.
    Mr. Paulison. Senator, you are right on target. What 
happened in Hurricane Katrina, as far as communications, was 
simply unacceptable. We have put several things in place. I did 
talk about a couple of them.
    One I do want to talk about is situational awareness. We 
have created teams inside of FEMA and also inside of DHS that 
will be prepositioned, pre-deployed. They have the capability 
of satellite communications and land mobile radio 
communications, including video streaming, beam it back to here 
in Washington and to our Joint Field Office.
    I think one of the most important things that I saw during 
Hurricane Katrina is a lack of--it was not a unified command 
post where everyone participated, including the Federal 
Government. We just had two hurricane exercises at the White 
House level, one at the assistant secretary level. We had one 
last week at the deputy secretary's level. There is one today 
at the Secretary's level, just dealing with the National 
Response Plan and the importance of our Joint Field Office. Now 
everyone has to be in that place doing our planning, our first 
block of 12-hour planning, then our second block of planning, 
and how we are going to communicate with each other.
    That is going extremely well, I have to tell you. So that 
part is going to be fixed.
    The other part is communication with the State. We did not 
have good communications with the State. We fixed a little bit 
of that in Hurricane Rita and then much more so in Hurricane 
Wilma. During Hurricane Wilma, we had up to 30 FEMA people 
inside the State Emergency Management Office. We had people at 
the Hurricane Center. We had people in some of the key counties 
around, where we knew what was going on, knew what the needs 
were of the State, and could react as quickly as possible.
    So those are the types of things that we are doing because, 
as you pointed out, communication is as important if not more 
important than anything else. If you do not know what is going 
on, you cannot help.
    Chairman Collins. Exactly. Thank you. Senator Voinovich.
    Senator Voinovich. Chief Paulison, one of the things that I 
think impacts upon your job is our Federal investment in 
infrastructure. And I think that Senator Collins and Senator 
Lieberman did an excellent job investigating Hurricane Katrina.
    But I think, as we learned at several EPW Committee 
hearings, that if the Congress had given the Army Corps of 
Engineers the budget that it needed to strengthen the levees, 
New Orleans might not have suffered such severe levee breaches.
    I was shocked to find that the Army Corps of Engineers did 
not have as one of their priorities the protection of life and 
property. Instead, the projects are primarily oriented toward 
economic considerations.
    I would suggest that there should be better communication 
and alignment between the Army Corps of Engineers and FEMA 
regarding pre-disaster mitigation and setting priorities. I 
would be interested to hear what you have to say about that.
    My second concern is interoperable communications. I will 
never forget when I was governor of Ohio, I got criticized 
roundly. We spent $240 million to put in a new interoperable 
communications system.
    The question I have is, what responsibility does the local 
and State Governments have in terms of putting that into place? 
And what is your opinion of the Federal Government's role in 
ensuring the States achieve interoperability? Would you support 
a matching program?
    My third concern is the Emergency Management Performance 
Grants. I have been trying to get more money every year for 
EMPG. FEMA is only as strong as the State organizations you 
work with throughout the country.
    I know that our mutual friend, Dale Shipley, has assisted 
DHS in conducting a nationwide preparedness review. I would 
suggest, and maybe you have already thought of it, FEMA could 
send letters to the governors to let them know they are not 
where they are supposed to be in the nationwide preparedness 
goal.
    The reason I suggest that is when I became governor of 
Ohio, we did an analysis of the county organizations and found 
out a lot of them were not prepared. We could not get any 
action. So I sent letters to the county commissioners 
expressing my concern that they were not ready to respond to 
disasters. And I released the letters to the press. And it is 
amazing, something got done, and the counties began to work 
toward improving preparedness.
    So I would be interested in your comments on all three of 
these areas.
    Mr. Paulison. I do have regular communications and meetings 
with the Army Corps of Engineers to make sure that they know 
our issues. I think you have pointed out something accurate. 
Our infrastructure system across this country, a lot of our 
levees were built 50 or 60 years ago.
    My own home State, right around Lake Okeechobee, now we 
found out that we have problems with those levees.
    Sacramento is another one that we were dealing with 3 weeks 
ago because of all the rains we were having.
    A tremendous amount of rain up in the Northeast in three 
States up there, and we are already dealing with assessing 
declarations for those three States. We are working with the 
Corps very closely.
    Our piece of it is we do not deal with the levees 
themselves. But what we are doing is we are identifying those 
critical areas, those weak areas, and going into those cities 
and States and helping them devise----
    Senator Voinovich. One of the things that you ought to do 
is let us know what those critical areas are so that Congress 
can highlight them in terms of priority and also examine 
whether there is an adequate sum of money to address 
weaknesses.
    Mr. Paulison. Understood. What we did in Sacramento, per 
se, and then also we are doing in Florida is helping them 
devise good evacuation plans because that is what FEMA does, 
and making sure there is a method to move people out if there 
is a levee breach, where are they going to go? How are they 
going to be housed? So we can step in where we can legally help 
them with some of those things. That is our part in that. Of 
course, that is an aftermath part. But at the same time it is 
the Corps responsibility for the levees, but we are working 
with them on that.
    Communications, it is a major issue like we talked about 
earlier, about how we are going to communicate with each other. 
A lot of it, quite rightly, does fall in the lap of the local 
communities. It is their radio system. But oftentimes, 
especially the way sometimes the economy is, local 
communities--especially some of the bigger cities that do not 
have the tax base anymore. You take Philadelphia and Pittsburgh 
and other places like that where they are losing people out of 
the inner cities, it is tough for them sometimes to come up 
with the money to develop sophisticated communication systems.
    Senator Voinovich. The point is, what is the responsibility 
of the Federal Government? And what is the local 
responsibility? In other words, I think we maybe ought to have 
a match program that says if States come up with some of the 
money for the communications, the Federal Government will 
assist. But the cost should not fall entirely on the back of 
the Federal Government. Some communities want us to pick up the 
entire tab, but I do not think that is a Federal 
responsibility.
    Mr. Paulison. Understood.
    The EMPG, I think you are correct on that, also. Our State 
emergency managers are the key. It is very difficult for FEMA 
to come in and plug into a system when that system is broken. 
So it is important for the State emergency managers to be up to 
speed.
    I just had a conversation 3 days ago with Bruce Baughman, 
the current President of the National Emergency Managers 
Association, and we are going to be working with them to put 
together some type of an evaluation process where we can go to 
the States and do an assessment of what their capabilities are 
and find out where their weaknesses are and help put that 
together.
    So we will deal with some of the things you just did, like 
you said in your community, where you did an evaluation of all 
of the counties.
    So we are in a very preliminary conversation with that, but 
that is what they want to do, and we are looking at how we can 
help them do that to find out exactly where we are as far as 
preparedness across this country.
    Senator Voinovich. Thank you.
    Chairman Collins. Senator Carper.
    Senator Carper. Thanks, Madam Chairman.
    Senator Coburn, who may have been here earlier, he and I 
serve as the Chairman and ranking Democrat on one of the 
Subcommittees of this Committee.
    Last month we were down in New Orleans, we had a field 
hearing. I think I mentioned this to you when you were good 
enough to come by and visit with me.
    Among the things that we heard about were what sounded like 
a no-bid contract that went out for debris removal. The prime 
contractor hired a subcontractor, who hired a subcontractor, 
who hired another subcontractor who actually did the work, it 
sounds like for if not pennies on the dollar, nickels on the 
dollar. And all the different levels of subcontractors got some 
money out of it. It was dismaying to hear about that sort of 
thing.
    We heard folks talk to us about the blue tarps. And flying 
around down there in the helicopter, we saw plenty of blue 
tarps. We understand how they can play a valuable, useful role.
    We also heard stories that some of the money spent on 
putting blue tarps on roofs cost almost as much as a new roof 
might have cost.
    We heard from folks who talked about the amount of money 
that was spent on these trailers to come in and provide 
temporary housing for folks, a lot of whom apparently were not 
actually used in the end.
    It certainly makes us angry, as Members of this Committee 
and Members of the Senate, but it sure makes taxpayers angry, 
as well.
    Just take a minute and tell me what you, as the Director, 
can do to ensure that kind of thing does not happen again?
    Mr. Paulison. I think you are recognizing some of the same 
things we are recognizing, particularly with debris removal. We 
know it has been an issue.
    One thing we have done is we have taken away the 
discrepancy in our reimbursement between what we reimburse if 
you use the Corps and what we will reimburse if you use a 
private contractor. They are going to be the same now. Whatever 
the reimbursement is, whether it is 100 percent, 90/10, or 75/
25.
    We are also putting together a registry of debris removal 
contractors, giving the flexibility to the local communities to 
choose who they want to choose. They can either use the Corps, 
which may have to happen at least in the first couple of weeks 
because generally the local contractors are not up and ready 
yet, or they can choose to use a contractor off the registry or 
anybody else who is qualified to do the job.
    That will give them a tremendous amount of flexibility in 
debris removal and also probably cut down on some of the same 
issues that you just talked about, about three or four 
contractors in a row and the last guy on the end is the one 
getting paid for it.
    Senator Carper. Unfortunately, they all get paid something. 
The last guy at the end is actually doing the work.
    Mr. Paulison. But the bottom guy is not getting paid 
probably as much as he should.
    The blue tarps, they can be expensive sometimes. But quite 
frankly, there is no other option. There simply are not 
contractors, nor are there building materials available, to put 
a new roof back on at that time. And the blue roof is the only 
option we have.
    I went to Miami over the weekend to visit with Max 
Mayfield. And when I flew in I was amazed at the number of blue 
tarps that are still there. And they talk to people, and they 
said I cannot get a contractor, I cannot get material. If I 
find a contractor, he cannot get shingles or roofing tile.
    I know it took us a while just to get tile for our roof 
down there. Luckily, we did not have any leaks, so it was not a 
big deal.
    The same thing with the trailers. The trailers can be 
expensive. It is not our first choice in putting people in 
housing. Unfortunately, it was all we had down there. There was 
no housing stock. There was no place to put people. The travel 
trailers work extremely well. We can back them up in somebody's 
driveway, minimal hookup, hardly any permitting to do that at 
all, and those move very quickly. About 80 percent of our 
people that are in travel trailers are actually in their own 
driveways, so that works out well.
    To do a mobile home park, we have to go and put 
infrastructure in. We have to put water and sewer, electric, 
security, and lighting in. It gets very expensive to do that, 
and we do not really like to do that.
    Unfortunately, particularly in Louisiana and parts of 
Mississippi, we really did not have a choice. If people were 
going to be housed, that is all we had to house them in.
    Senator Carper. I have a couple of questions I want to give 
you for the record with respect to the trailers, but I will 
just do that for the record. If you would respond, I would be 
grateful.
    Mr. Paulison. We will be glad to, sir.
    Senator Carper. The other thing, I think I heard Senator 
Voinovich talking about communications. When he and I were in 
our old jobs, one of the things we undertook in Delaware was to 
put in place a statewide 800 megahertz radio system to provide 
for interoperable radios for all of the first responders, fire, 
police, State, or DEMA people, National Guard, all kinds of 
folks.
    It has been difficult to get it to work as advertised, but 
eventually we have tweaked it and worked with the contractor 
long enough so I think it is a pretty good system today. It has 
been about 7, 8 years, 9 years that we have been working on it.
    We saw a lot of widespread total collapse of communications 
in New Orleans. You and I talked a little bit when you visited 
with me last week about how we can avoid that kind of 
communications failure in the future.
    For the record today, would you just talk about that some 
more, please?
    Mr. Paulison. I think one of the issues, as we rebuild back 
some of these communication systems, that we harden them so 
that they will withstand some of those winds. Just in Hurricane 
Andrew we lost all of our towers where Hurricane Andrew went 
through, and there was no ability to communicate. We ended up 
taking a 100-foot ladder truck and putting a portable repeater 
and a Honda generator on top of it. And that was our 
communications for the whole south end of the county.
    So as we rebuilt, the new towers that went up were hardened 
to withstand hurricane winds. That is one of the things we need 
to do. But also, we can move in with our MERS system and set up 
temporary communications. We also work with a lot of the 
private contractors to move in, people like Macom and Motorola 
who can move in quickly to help set up a system right away for 
the local community.
    In the short term we can help them do that. We can bring 
trucks in with towers. It is not perfect, but at least they can 
communicate in local areas. So that is some of the things we 
have to do.
    We can also bring in equipment to help them with their 
interoperability. We can put their radios together through some 
of our systems, where you can have police, fire, EMS, public 
works, everybody can talk to each other.
    Again, it is not a perfect system, but right now it is much 
better than what we were just a few years ago.
    Senator Carper. What was the line from the old Paul Newman 
movie, what we have here is a failure to communicate?
    Chairman Collins. Cool Hand Luke.
    Senator Carper. Cool Hand Luke. There you go.
    That is part and parcel of what happened, and Hurricane 
Katrina is part and parcel of what happens in other places, as 
well. We know it is going to be a challenge. We know it is 
going to happen. We just need to be ready for it. And the State 
and local governments have an obligation as well. It is not all 
on your back.
    Thank you for your willingness to serve in this capacity. 
We look forward to working with you.
    Mr. Paulison. I look forward to working with the Committee, 
also. Thank you very much.
    Senator Carper. Thanks so much.
    Chairman Collins. Mr. Paulison, I want to follow up on an 
issue that Senator Carper just talked to you about on the 
expensive and unnecessary reliance on sole source contracts in 
the wake of Hurricanes Katrina and Rita.
    FEMA awarded four large sole source contracts to provide 
temporary housing. Originally, these contracts had ceilings of 
$100 million. In the fall of 2005, in response to a greater 
demand for temporary housing, FEMA increased the ceilings on 
each of these contracts to $500 million.
    When you testified before our Committee, we expressed this 
concern to you. You said you were no fan of sole source 
contracts, and you indicated that you would get those contracts 
competed.
    But what happened is while some of the peripheral 
requirements contained in the contracts were stripped out and 
awarded competitively to small and local businesses, the main 
portion of the work continued to be done by these four large 
contractors.
    Then, in February 2006, the value of two of these contracts 
was raised again. The largest is now valued at $1.2 billion, 
and DHS has told our Committee that the ceiling is rapidly 
being approached.
    I think we could all agree that awarding nearly $3 billion 
in sole source contracts does not ensure the best value for the 
taxpayers. What are you going to do for the future to make sure 
that we do not have a situation where literally billions of 
dollars are going out of the door without competition, without 
any assurance that the taxpayers are getting the best price or 
the best quality?
    Mr. Paulison. Senator, everything you said is right on 
target. Those four contracts were put in place where they were 
halfway through a bid process. That is not the way to do 
business.
    We have rebid the four bids. The ones we stripped out, 
actually we ended up taking all of what they were doing locally 
as far as the maintenance, security, breaking down the 
trailers, those types of things, and rebid those out to small 
and disadvantaged local companies. And we ended up giving them, 
I think 37 companies, almost $3.5 billion worth of work at the 
local community.
    We have since rebid the big contracts. They are out on the 
street, and they will be awarded probably about mid-June, I 
would guess, is where we will award the four big ones, if 
things go smoothly, as I hope they go.
    I do stand by my statement. I do not like no-bid. I do not 
like sole source contracts. That is why we got into the place 
we are now. The contracts were not crafted as they probably 
should have been because they were done in a hurry.
    So what FEMA needs to do, and what we are going to do, is 
to make sure we have contracts in place prior to hurricane 
season as much as possible. And not just for the four bids but 
everything, all of our commodities, our food, and our water, 
all of those types of things. Those contracts need to be bid 
out, awarded, and put on the shelf. We can take them off when 
they are needed. That gives us more control over what goes into 
the contract, more control over the contractors' work and what 
their responsibilities are. So that is what we are doing to fix 
that problem, and it is so important that we do that.
    There may be an occasion where something comes up in the 
middle of a disaster where we did not have a clue we were going 
to need it and maybe have to do either a no-bid or sometimes 
there are true sole source, where that is the only company that 
can do that.
    But that should be the exception, not the rule, like we 
have had in the past.
    Chairman Collins. It should be the exception, but what we 
are talking about here are services and commodities that are 
easily anticipated. You know you are going to need ice. You 
know you are going to need temporary housing. You know you are 
going to need tarps. You know you are going to need debris 
removal.
    It is interesting because if you contrast competitive 
contracts issued by counties that planned ahead for debris 
removal, for example, they are getting far more debris removed 
at a far lower price. So I am pleased to hear that you agree we 
need to anticipate these needs and that you have taken actions 
to ensure that we do so.
    All of us understand the truly unanticipated need or the 
true sole source provider. But that is really not what we are 
talking about in this situation.
    Mr. Paulison. You are right; we are not. And we do agree 
with you that we should have all those contracts for 
commodities in place ahead of time and not wait until the last 
minute to do those.
    Chairman Collins. To ensure its credibility and to restore 
the public's confidence in FEMA, FEMA needs to do a good job 
not only with the huge disasters like Katrina but also in 
responding to smaller disasters that still qualify for public 
assistance and that still have an enormous impact on the people 
who are affected. Senator Dayton has expressed his frustration 
with one in Minnesota.
    As you know, we recently suffered enormous rain storms in 
the State of Maine. Some small towns were drenched with more 
than 12 inches of rain in a very short period of time. That 
resulted in severe flooding, rivers overflowed, streets 
flooded, dams buckled, bridges were washed away.
    The timing of this for coastal Maine has really been a 
catastrophe. Many of these communities rely on tourism for 
their economy, and many small gift shops and restaurants had 
just stocked up for the beginning of the Memorial Day summer 
season, where they make most of their money.
    Last week, the State of Maine requested a major disaster 
declaration for Southern Maine. Could you bring us up-to-date 
on when we are likely to hear a decision on that request and 
what FEMA is doing to help the small business owners and also 
the homeowners? Two hundred homeowners were forced to evacuate 
their homes. Again, I realize this is not the scope of a 
Katrina, but it is absolutely devastating for the towns that 
were affected.
    Mr. Paulison. No, you are right. If it is your house, it is 
a disaster, regardless of how many other houses it takes down. 
I am very sensitive to that.
    Actually, we have had staff working all last week and all 
over the weekend, processing not only the declaration from your 
State but the other two States also. They are in our office 
now, out of the regions here, and we are diligently working on 
them to get them out as quickly as possible. We are very 
sensitive to the economic impact it is going to have. So we 
will process them absolutely as quick as possible.
    And by the way, our regional directors up there have been 
working very closely with all three States and have had great 
cooperation to find what their needs are, and we are right 
there with it.
    The timing, the fact that I am coming in front of your 
Committee was also significant. So we are moving as diligently 
as possible, Senator.
    Chairman Collins. I am going to be talking to the governor 
in an hour from now. Do you have any idea when we might hear 
whether or not the declaration has been approved?
    Mr. Paulison. I really cannot. I just need to go back and 
look at it. I was kind of getting prepared for this Committee. 
I did get briefed early this morning, and we do have all the 
stuff and have all of the packages. They all look like they are 
in good shape, so we are going to process them as quickly as 
possible. Just share that with the governor, and we will be 
glad to call him as soon as we are ready.
    Chairman Collins. Thank you. Senator Voinovich.
    Senator Voinovich. I have a couple of questions.
    In the wake of Hurricane Katrina, it seems the pendulum has 
swung away from terrorism and back toward natural disasters, 
with FEMA focusing significant attention on hurricane 
preparedness and response. Is FEMA maintaining an all-hazards 
approach? How will you work to ensure that the Agency achieves 
readiness for all threats, whether man-made or natural 
disasters?
    My other question concerns FEMA's absorption into DHS. 
There are some people that have said that the merger with DHS 
has really hurt FEMA. Do you believe FEMA's absorption into DHS 
hurt FEMA? If so, do you believe that the damage was a result 
of structural change or poor management?
    If you are confirmed as Under Secretary, what will you do 
to better integrate FEMA into the Department?
    Senator Collins and Senator Lieberman have some suggestions 
on reorganization. But I know from talking to Secretary 
Chertoff, he has indicated to me that you are just having a 
hard time doing what you are doing right now.
    I think the key is to continue integrating FEMA into the 
Department of Homeland Security and ensuring that you are 
utilizing all of the resources and that you are prepared for 
not only natural disasters but also for--hopefully we will not 
have to respond to one--a terrorist attack.
    Mr. Paulison. I am absolutely committed to the all-hazards 
approach. That is the right way to respond. It does not matter 
whether an earthquake takes a building down or a terrorist 
blows it up. The response is the same. The building comes down 
differently, but the response is exactly the same from the 
local level, from the State, and from the Federal Government.
    So it does not make sense to say this is for hurricanes, 
this is for something else. We are going to take the all-
hazards approach and continue taking that because that is the 
right thing to do.
    On the other part, I will speak from my experience. I am 
not going to point fingers at anybody else as to what happened 
in the past. But I can tell you that being part of the 
Department of Homeland Security has been a tremendous asset for 
me personally in helping put FEMA back together. The resources 
inside Homeland Security that I can depend on that are right at 
my fingertips, Coast Guard, ICE, Border Patrol, Secret Service, 
all of those operational components, I meet with them every 
week, and we discuss these issues.
    Literally every week we have an hour-and-a-half meeting on 
how we are going to continue to coordinate, how we are going to 
share resources. And quite frankly, they are all personally, 
every one of the directors have personally offered their 
assistance in helping get FEMA back on its feet again.
    So for me it has been phenomenal. The support that I have 
gotten out of Secretary Chertoff and Deputy Secretary Michael 
Jackson has been remarkable. The amount of time they have put 
in working with me, helping us put the retooling system 
together.
    We meet with the Secretary every week for about 2 hours, 
going over the retooling, he is making sure that we are on 
track, what our needs are, where are our shortfalls, where are 
we doing well, where are we not doing well? So I could not ask 
for better support.
    With the deepest, and I mean this sincerely, the deepest 
respect to this Committee, reorganizing FEMA right now is not 
the right thing to do. We are still in the process of putting 
this organization back together. I think that I am on the right 
track. I think that you will see that the response that we have 
this year will be significantly different than we have had in 
the past. And I would just ask that you allow me to continue 
working with you on these issues.
    Your report is going to be a tremendous help for us. It is 
obvious that this Committee and your staff has a tremendous 
amount of knowledge that we can glean based on the 
investigation that you have done. So we want to continue 
working with the Committee through this next year.
    Senator Voinovich. I would just like to say that I would 
like to have what you are doing in writing.
    Mr. Paulison. Are you talking about the retooling effort?
    Senator Voinovich. Retooling and integration and how you 
are proceeding.
    Mr. Paulison. We can do that. Yes, sir. That is not a 
problem.
    Senator Voinovich. Thank you.
    Chairman Collins. Senator Carper.
    Senator Carper. Madam Chairman, I apologize for being sort 
of in and out of the room. You are competing with the Prime 
Minister of Israel, Prime Minister Olmert, who is addressing at 
this moment a joint session of the Congress. In fact, he just 
has concluded his remarks.
    The fact that we were here bears testimony to how important 
we believe--I acknowledge that the situation in the Middle East 
is important. I know it is to my two colleagues here and to me. 
But this is enormously important as well. So we are delighted 
to be here to have this opportunity to have this exchange.
    My staff informs me, Chief, that next week the four 
national contractors who have been installing and maintaining 
FEMA trailers for those dislocated by Hurricanes Katrina and 
Rita will turn over the maintenance of those trailers to 
smaller local companies. I also understand the turnover will be 
handled in phases through the month of June.
    And while I strongly support moving away from the no-bid 
contracts that we talked about earlier, that were awarded 
earlier in the recovery, and supporting local businesses, we 
want to make sure that this turnover is a smooth one. I am sure 
you do, too.
    I do not know to what extent you are familiar with this, 
but if you are able to, can you just give us a minute or so and 
explain how FEMA will manage this kind of turnover?
    Mr. Paulison. This is a concern of everyone. We cannot just 
have one company move out and another move in. The four big 
contractors are still there, doing the haul and install, for a 
short period of time anyway. But they are committed to make 
this transition as smooth as possible.
    We are transitioning out the maintenance, the day-to-day 
maintenance of the trailers and mobile homes. We are 
transitioning out the security. We are transitioning out all of 
those types of things to do with the breakdown of the trailers 
and things like that and bringing a lot of these small 
companies on board to do it.
    I think I told the Committee earlier we have, I think, 35 
or 37 companies that are going to receive bids for about $3.5 
billion worth of work. It is going to be significant for the 
local community to get these type of dollars in there and put 
that money actually where it belongs.
    We are working very hard to make sure the transition is 
smooth. We will have our contracting officers down there, also, 
to make it as smooth as possible.
    You were out of the room, but we have also rebid those big 
nationwide contracts.
    Senator Carper. Good.
    Mr. Paulison. Those are out on the street. And we will 
have--I cannot say we will have new contractors because these 
people have the right to compete also. But we will have new 
contracts in place that are much better written and will be 
much better managed than the ones we have had in the past.
    Senator Carper. Good.
    I said a minute ago I support the idea of giving contracts 
to local businesses if they are able to do the work. However, 
we want to make sure that the services that we contract for are 
provided and we contract with qualified businesses. I know you 
share that view.
    I understand there may be some concern on the ground, at 
least in Louisiana, that some of the companies taking over the 
trailer maintenance contracts may not be the most qualified. 
You have sort of spoken to this, but I am going to ask you to 
address it again.
    Can you explain how companies that bid for FEMA contracts 
are vetted? And how, for example, a bookkeeping company might 
have been found qualified to manage a multimillion dollar 
trailer maintenance contract?
    Mr. Paulison. I am not quite aware of that one, but I will 
check into it. I do not get into the nitty-gritty of those 
types of things. We have professional contracting staff that we 
are using, and not just out of FEMA. We have people from other 
agencies that are helping us, GSA and some others, to go 
through to vet through this list of people who bid because 
quite a few people bid on these contracts.
    I have to have confidence in the staff that they are 
picking qualified contractors.
    Again, if you have individual ones that I need to check on, 
I will be glad to do that. I simply do not have the time to get 
that deep into the woods sometimes.
    Senator Carper. I understand.
    Mr. Paulison. Thank you, sir.
    Senator Carper. Those are my questions.
    Again, Chief Paulison, thanks for being with us. Thanks for 
your service to our country. And to your family, thank you for 
sharing your husband and father with us.
    Thank you.
    Chairman Collins. Thank you, Senator.
    Mr. Paulison, I just have a few more questions. I actually 
have many more questions, but I am only going to ask you a few 
of them.
    One difficult issue that FEMA faces is the appropriate role 
for FEMA vis-a-vis State government vis-a-vis local government.
    On the one hand we have always had a bottoms-up emergency 
management system with substantial responsibility placed at the 
local and State level. On the other hand, we have the reality 
that some States, such as the three of ours, do a better job 
than other States in carrying out their responsibilities.
    Obviously, you do not want to create a perverse incentive 
for States to abandon their responsibilities. You want to make 
sure they are making the investment, that they are not just 
relying on the Federal Government to completely take over 
emergency management.
    But on the other hand, you have the reality of a State like 
Louisiana, which has admitted that it is not prepared for this 
hurricane season. What do you do if the Federal Government 
steps in, as it really must because it cannot allow people to 
suffer? It takes pressure off Louisiana or other States to make 
the kinds of investments and do the planning that needs to be 
done.
    In a March 31 letter to you, the Director of the State of 
Louisiana's Office of Homeland Security and Emergency 
Preparedness candidly lists several vulnerabilities in 
Louisiana's emergency plan. It is really quite striking when 
you read how ill prepared Louisiana is.
    I think all of us are sympathetic that the State of 
Louisiana is still devastated by the hurricane. But let me just 
read you one example. The letter reads, ``We expect that 
between 200,000 to 300,000 people may need to be provided with 
shelter in the event of a regional evacuation from the 
Southeast portion of the State. The State of Louisiana 
currently has shelter capacity for approximately 80,000.'' It 
does not come close to meeting what Louisiana predicts would be 
the projected need.
    There is also a discussion about the number of nursing 
homes and the lack of an adequate plan to evaluate nursing 
homes. To me the most tragic testimony that we received during 
our hearings was learning of the failure to evacuate nursing 
homes which caused the loss of dozens of lives needlessly in 
Louisiana and was such a contrast with Mississippi, which did 
evacuate its nursing homes.
    This letter outlines tremendous needs for pre-storm 
assistance and evacuation, in the aftermath of the storm in 
sheltering, in transporting people with special needs. What do 
you see as the appropriate role for FEMA for responsibilities 
that usually are done by State and local governments when you 
have a State admitting that it cannot possibly cope?
    Mr. Paulison. That letter was actually precipitated by a 
visit by Under Secretary Foresman and myself down to Louisiana 
to meet with the State emergency manager, the emergency manager 
of New Orleans, the emergency managers of four or five of the 
parishes were there, to have a closed-door, no kidding, what 
can you do and what can you not do. And that is when we 
received that letter.
    I put two technical assistance teams down there to start 
working with them, developing their evacuation plans, identify 
some of these shortfalls and where we can step in and assist 
them as they build the system back up again, to identify some 
of the things you just talked about.
    It is a fine line you walk. The bottom-up system that you 
talked about, I mean all response is local. Nobody wants the 
Federal Government, nobody wants the State to come in. I came 
from the local community, and I do not want anybody taking over 
my community.
    But the system that we have used for the last 30 years, 
where you wait for the city to fail or the community to fail 
and then the State comes in, and you wait for the State to fail 
and then the Federal Government comes in and let them fail, 
simply is not good enough.
    What we are doing, we are going to be leaning very far 
forward, not taking over from any State, obviously. We are not 
going to do that, but be right there by their side as we go 
through this process, as we go through a disaster to make sure 
so we can identify where those issues are before there is a 
failure and bring in Federal resources to help the State and 
help the local communities.
    That is where we have to do this, particularly when you 
have a State like Louisiana that is extremely vulnerable, and 
Mississippi also now because of the numbers of people in travel 
trailers. It is extremely vulnerable, has a lot of issues they 
have to deal with that they would not normally have to deal 
with, like some of the massive evacuations. We have to simply 
be there by their side. And that is what we are going to do.
    We have committed to the State of Louisiana that we are 
going to do that. There is actually an exercise going on right 
now as we speak down there that we are participating in with 
them. Quite frankly, I just got some reports back just before 
the meeting. There are some problems. But that is good. We want 
to find all those problems now, during a drill, as opposed to 
waiting for an actual disaster.
    Chairman Collins. Mr. Paulison, I know you are familiar 
with our report and our 88 recommendations. I also understand 
that you are busy focusing on this year's hurricane season and 
improving preparedness and response.
    Some of our recommendations require legislation, such as 
the reforms of FEMA. But there are 36 recommendations that FEMA 
could implement without legislation. Some of them are smaller 
recommendations, but still ones that would make a difference.
    For example, publishing the long overdue field operations 
manuals, and establishing the regional task forces, or strike 
teams. That is a major one. Reforming and revising the National 
Response Plan to make the lines of authority clearer.
    I would ask that you pledge to report back to this 
Committee as soon as possible with your plans on implementing 
these recommendations. Tell us which ones you agree with, which 
ones you disagree, and what are your plans to go forth with the 
ones that you do support.
    Will you pledge to do that?
    Mr. Paulison. Actually, your staff gave me the list as I 
was sitting here so I have it right in front of me. Yes, I do 
pledge to do that. That is the right thing to do.
    The 88 recommendations are significant. Your report is 
extremely thorough. It showed a tremendous amount of work by 
this Committee and the staff. We are going to take it very 
seriously.
    Chairman Collins. Finally, I want to follow-up on an issue 
that Senator Voinovich raised, and that is the reform of FEMA. 
As you know, our report recommends a complete restructuring of 
FEMA with new authority, with the restoration of responsibility 
for preparedness and grant making. I understand your qualms 
about proceeding with a reorganization, although I would 
caution you that there are considerable risks in proceeding 
with a flawed organization as well.
    I want to focus on an issue that Senator Voinovich touched 
on to make sure that we get a clearer answer for the record. As 
you know, our Committee concluded that DHS is the proper home 
for FEMA and that otherwise you would end up taking what is now 
a weak agency out of a department that should be providing 
support. There should be synergies, such as you have mentioned 
with the Coast Guard, with the law enforcement agencies. I 
think you would also end up having a duplication of effort 
because you would have to reconstitute within DHS some sort of 
response agency to take care of mass casualties if there were a 
terrorist attack.
    I strongly support keeping FEMA or its successor agency 
within DHS. Given your 30 years of emergency management 
experience, I want to ask for your judgment, for the record, on 
whether or not FEMA should remain part of DHS?
    Mr. Paulison. I would be happy to do that because I said it 
earlier, and I will repeat it again. FEMA belongs inside of 
DHS. There is a significant amount of resources that are at our 
fingertips, not only for retooling FEMA but also in response.
    Again with how you saw the Coast Guard operated, Border 
Patrol, ICE, all of those operational components inside of FEMA 
right there at our fingertips. We do not have to mission 
assign. We do not have to go through another secretary. We 
simply just pick up the phone and say I need this there, and it 
happens. That is a tremendous asset for us.
    I have developed a personal relationship with the other 
operational components inside FEMA. We meet once a week and 
discuss some of these issues. So I am firmly convinced that 
FEMA needs to be inside of DHS, and I will stand by that. The 
Secretary, quite frankly, supports me on that issue.
    Chairman Collins. Thank you.
    I think you are right on that point. You need, however, to 
reconsider the issue of reforming FEMA, but I think you are 
absolutely right. I think the best evidence is the performance 
of the Coast Guard. By all accounts, the Coast Guard was a star 
in responding to Katrina, and yet the Coast Guard is part of 
DHS.
    I think those who believe that it is the location of the 
agency that determines whether or not it functions well are 
really missing the point, so I appreciate your clear statement 
in response to my question.
    Mr. Paulison. And they did such a good job, I stole Admiral 
Johnson from them.
    Chairman Collins. I saw that, as your Deputy.
    Again thank you. I do anticipate that there will be 
additional questions submitted for the record by Members of the 
Committee.
    Senator Voinovich, do you have any closing questions or 
comments you would like to make?
    Senator Voinovich. The comment I would like to make is 
that, after sitting through all of the things we discussed 
today, why anybody would want the job?
    Mr. Paulison. My wife said what are you thinking?
    Senator Voinovich. But in all seriousness, I think you have 
a wonderful opportunity to start a new chapter for FEMA in its 
relationship with the Department of Homeland Security.
    If you really want to make a contribution to this country, 
and I sense that you do, I ask that you be as candid with 
Congress as you possibly can be.
    If you have concerns, whether budgetary or operational, I 
expect that you will come forward to the Committee either 
publicly or privately to let us know.
    I think the Chairman and Members of this Committee want to 
do everything we can to help you and your agency succeed.
    So we are expecting you to honestly communicate with this 
Committee about your agency's needs.
    As I say, you have a wonderful opportunity to really make a 
contribution to our country and save lives and make people's 
lives better.
    So thank you very much for your willingness to serve in 
this tough job.
    Mr. Paulison. I want to thank both of you and the rest of 
the Committee. We do perceive this Committee as an ally, and we 
know you want to help. And we know how much work you have 
actually put in already. So you have my commitment, we will 
continue to work with this Committee with all vigor.
    Chairman Collins. Thank you.
    I want to echo Senator Voinovich's admonition to you to 
come to us if you have problems, if you need more resources, if 
you need support. We want to hear from you.
    I want to thank Senator Voinovich for staying for the 
entire hearing. As you know, there were a lot of important 
competing demands today, and I think his full participation 
demonstrates how much he is concerned that we get this right 
and how important we view your nomination.
    I remember, Mr. Paulison, when we talked on the phone when 
you were tapped to be the Acting Secretary, you told me at that 
time that your wife thought you were crazy to undertake the 
responsibility of Acting FEMA Director. Now you are taking on 
even more responsibility.
    I want to thank you for your willingness to do so. I do 
think it is an extraordinarily important job. And it does 
matter, as we saw so vividly during the woefully inadequate 
response to Hurricane Katrina, who leads FEMA. I think that you 
are not only serving your country well, but that this is 
something your family can be very proud of, as well. I 
appreciate your public service.
    Without objection, the hearing record will be kept open 
until noon tomorrow for the submission of any additional 
written questions or statements for the record.
    Thank you for being here today, and this hearing is now 
adjourned.
    [Whereupon, at 12:20 p.m. the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


                  PREPARED STATEMENT OF SENATOR LEVIN

    I would like to welcome Chief Paulison. I am pleased that the 
President has nominated someone who has extensive emergency management 
experience. Someone who has on-the-ground experience fighting fires, 
conducting search and rescue operations, and coordinating the response 
and recovery efforts during large scale emergencies, such as Hurricane 
Andrew and the crash of ValueJet Flight 592.
    We all want--and this country needs--a Federal Emergency Management 
Agency that is led and staffed by experienced professionals. Unlike so 
many appointees of this Administration, you are being nominated based 
on your experience and abilities, instead of your political ties. I am 
pleased that you also intend to staff this agency with people who have 
the right skills and experience to handle the challenging and vitally 
important responsibilities of FEMA. My request to you is that you 
follow through on these good intentions--not only the tremendous 
staffing needs within FEMA, but the numerous other improvements that 
are required to get this agency back on track.
    The first responder community--including a number of fire chiefs in 
my own State of Michigan--have enthusiastically supported your 
nomination as head of FEMA. You have also received the support of James 
Lee Witt, the tremendously successful former director of FEMA under 
President Clinton.
    Although I am impressed with your qualifications, I do have some 
concerns. First, I am concerned that the commitments you made before 
this Committee during an October 6 hearing on Hurricane Katrina have 
not been fully realized. You committed to re-bid all of the Katrina 
contracts that were awarded through a no-bid, sole source process. That 
has not happened. You said you would make the matter of the thousands 
of reported missing children the number one priority of your agency's 
efforts. But it took nearly 7 months--until March 7--until the last 
child reported to the National Center for Missing and Exploited 
Children was reunited with her family.
    I am also concerned with your support of the recent reorganization 
of DHS, which stripped FEMA of its preparedness functions and moved 
them into a separate Office of Preparedness within DHS. Emergency 
management experts and first responders across the country have been 
extremely critical of removing the important functions of preparedness 
from FEMA, and I hope that you will monitor how this reorganization is 
impacting the ability of FEMA to adequately respond to emergencies and 
disasters.
    While I have these concerns, I plan to support your nomination, and 
I look forward to working with you to create a Federal Emergency 
Management Agency that is stronger and more prepared to handle whatever 
disasters and emergencies this country might face in the future.

[GRAPHIC] [TIFF OMITTED] T8249.001

[GRAPHIC] [TIFF OMITTED] T8249.002

[GRAPHIC] [TIFF OMITTED] T8249.003

[GRAPHIC] [TIFF OMITTED] T8249.004

[GRAPHIC] [TIFF OMITTED] T8249.005

[GRAPHIC] [TIFF OMITTED] T8249.006

[GRAPHIC] [TIFF OMITTED] T8249.007

[GRAPHIC] [TIFF OMITTED] T8249.008

[GRAPHIC] [TIFF OMITTED] T8249.009

[GRAPHIC] [TIFF OMITTED] T8249.010

[GRAPHIC] [TIFF OMITTED] T8249.011

[GRAPHIC] [TIFF OMITTED] T8249.012

[GRAPHIC] [TIFF OMITTED] T8249.013

[GRAPHIC] [TIFF OMITTED] T8249.014

[GRAPHIC] [TIFF OMITTED] T8249.015

[GRAPHIC] [TIFF OMITTED] T8249.016

[GRAPHIC] [TIFF OMITTED] T8249.017

[GRAPHIC] [TIFF OMITTED] T8249.018

[GRAPHIC] [TIFF OMITTED] T8249.019

[GRAPHIC] [TIFF OMITTED] T8249.020

[GRAPHIC] [TIFF OMITTED] T8249.021

[GRAPHIC] [TIFF OMITTED] T8249.022

[GRAPHIC] [TIFF OMITTED] T8249.023

[GRAPHIC] [TIFF OMITTED] T8249.024

[GRAPHIC] [TIFF OMITTED] T8249.025

[GRAPHIC] [TIFF OMITTED] T8249.026

[GRAPHIC] [TIFF OMITTED] T8249.027

[GRAPHIC] [TIFF OMITTED] T8249.028

[GRAPHIC] [TIFF OMITTED] T8249.029

[GRAPHIC] [TIFF OMITTED] T8249.030

[GRAPHIC] [TIFF OMITTED] T8249.031

[GRAPHIC] [TIFF OMITTED] T8249.032

[GRAPHIC] [TIFF OMITTED] T8249.033

[GRAPHIC] [TIFF OMITTED] T8249.034

[GRAPHIC] [TIFF OMITTED] T8249.035

[GRAPHIC] [TIFF OMITTED] T8249.036

[GRAPHIC] [TIFF OMITTED] T8249.037

[GRAPHIC] [TIFF OMITTED] T8249.038

[GRAPHIC] [TIFF OMITTED] T8249.039

[GRAPHIC] [TIFF OMITTED] T8249.040

[GRAPHIC] [TIFF OMITTED] T8249.041

[GRAPHIC] [TIFF OMITTED] T8249.042

[GRAPHIC] [TIFF OMITTED] T8249.043

[GRAPHIC] [TIFF OMITTED] T8249.044

[GRAPHIC] [TIFF OMITTED] T8249.045

[GRAPHIC] [TIFF OMITTED] T8249.046

[GRAPHIC] [TIFF OMITTED] T8249.047

[GRAPHIC] [TIFF OMITTED] T8249.048

[GRAPHIC] [TIFF OMITTED] T8249.049

[GRAPHIC] [TIFF OMITTED] T8249.050

[GRAPHIC] [TIFF OMITTED] T8249.051

[GRAPHIC] [TIFF OMITTED] T8249.052

[GRAPHIC] [TIFF OMITTED] T8249.053

[GRAPHIC] [TIFF OMITTED] T8249.054

[GRAPHIC] [TIFF OMITTED] T8249.055

[GRAPHIC] [TIFF OMITTED] T8249.056

[GRAPHIC] [TIFF OMITTED] T8249.057

[GRAPHIC] [TIFF OMITTED] T8249.058

[GRAPHIC] [TIFF OMITTED] T8249.059

[GRAPHIC] [TIFF OMITTED] T8249.060

[GRAPHIC] [TIFF OMITTED] T8249.061

[GRAPHIC] [TIFF OMITTED] T8249.062

[GRAPHIC] [TIFF OMITTED] T8249.063

[GRAPHIC] [TIFF OMITTED] T8249.064

[GRAPHIC] [TIFF OMITTED] T8249.065

[GRAPHIC] [TIFF OMITTED] T8249.066

[GRAPHIC] [TIFF OMITTED] T8249.067

[GRAPHIC] [TIFF OMITTED] T8249.068

[GRAPHIC] [TIFF OMITTED] T8249.069

[GRAPHIC] [TIFF OMITTED] T8249.070

[GRAPHIC] [TIFF OMITTED] T8249.071

[GRAPHIC] [TIFF OMITTED] T8249.072

[GRAPHIC] [TIFF OMITTED] T8249.073

[GRAPHIC] [TIFF OMITTED] T8249.074

[GRAPHIC] [TIFF OMITTED] T8249.075

[GRAPHIC] [TIFF OMITTED] T8249.076

[GRAPHIC] [TIFF OMITTED] T8249.077

[GRAPHIC] [TIFF OMITTED] T8249.078

[GRAPHIC] [TIFF OMITTED] T8249.079

[GRAPHIC] [TIFF OMITTED] T8249.080

[GRAPHIC] [TIFF OMITTED] T8249.081

[GRAPHIC] [TIFF OMITTED] T8249.082

[GRAPHIC] [TIFF OMITTED] T8249.083

[GRAPHIC] [TIFF OMITTED] T8249.084

[GRAPHIC] [TIFF OMITTED] T8249.085

[GRAPHIC] [TIFF OMITTED] T8249.086

[GRAPHIC] [TIFF OMITTED] T8249.087

[GRAPHIC] [TIFF OMITTED] T8249.088

[GRAPHIC] [TIFF OMITTED] T8249.089

[GRAPHIC] [TIFF OMITTED] T8249.090

[GRAPHIC] [TIFF OMITTED] T8249.091

[GRAPHIC] [TIFF OMITTED] T8249.092

[GRAPHIC] [TIFF OMITTED] T8249.093

[GRAPHIC] [TIFF OMITTED] T8249.094

[GRAPHIC] [TIFF OMITTED] T8249.095

[GRAPHIC] [TIFF OMITTED] T8249.096

[GRAPHIC] [TIFF OMITTED] T8249.097

[GRAPHIC] [TIFF OMITTED] T8249.098

[GRAPHIC] [TIFF OMITTED] T8249.099

[GRAPHIC] [TIFF OMITTED] T8249.100

[GRAPHIC] [TIFF OMITTED] T8249.101

[GRAPHIC] [TIFF OMITTED] T8249.102

[GRAPHIC] [TIFF OMITTED] T8249.103

[GRAPHIC] [TIFF OMITTED] T8249.104

[GRAPHIC] [TIFF OMITTED] T8249.105

[GRAPHIC] [TIFF OMITTED] T8249.106

[GRAPHIC] [TIFF OMITTED] T8249.107

[GRAPHIC] [TIFF OMITTED] T8249.108

[GRAPHIC] [TIFF OMITTED] T8249.109

[GRAPHIC] [TIFF OMITTED] T8249.110

                                 <all>

</pre></body></html>
